HHS/OIG-Audit--"Review of Costs Claimed by Med Tech Home Health Services, Inc., (A-04-97-01169)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by Med Tech Home Health Services, Inc." (A-04-97-01169)
April 16, 1999
Complete
Text of Report is available in PDF format (1.89 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates that Med Tech Home Health Services, Inc. was overpaid Medicare funds totaling at least
$1.9 million in Calendar Year 1996 for services that did not meet Medicare reimbursement requirements. A statistical sample
of 100 claims disclosed unallowable payments for: (1) 288 services included in 20 claims that were provided to beneficiaries
who were not homebound; (2) 233 services included in 16 claims that were not reasonable or necessary in the opinion of
medical personnel; and (3) 56 services included in 6 claims for home health aide services provided to beneficiaries who
had contracted with private agencies to receive similar type services, therefore, the aide services were unnecessary. We
are recommending that the Health Care Financing Administration (HCFA) instruct the Fiscal Intermediary (FI) to recover
overpayments of $1.9 million, and require the FI to instruct Med Tech on its responsibilities to properly monitor subcontractors
for compliance with Medicare regulations. The HCFA concurred with our recommendations.